<html>
<title> - PROTECTING OUR SENIORS: SUPPORTING EFFORTS TO END ELDER ABUSE</title>
<body><pre>[Senate Hearing 112-135]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-135
 
     PROTECTING OUR SENIORS: SUPPORTING EFFORTS TO END ELDER ABUSE

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                       SPECIAL COMMITTEE ON AGING

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS


                             FIRST SESSION

                               __________

                              HARTFORD, CT

                               __________

                            AUGUST 23, 2011

                               __________

                            Serial No. 112-8

         Printed for the use of the Special Committee on Aging


         Available via the World Wide Web: http://www.fdsys.gov



                  U.S. GOVERNMENT PRINTING OFFICE
70-551                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8aedfae5cae9fff9fee2efe6faa4e9e5e7a4">[email&#160;protected]</a>  

                       SPECIAL COMMITTEE ON AGING

                     HERB KOHL, Wisconsin, Chairman

RON WYDEN, Oregon                    BOB CORKER, Tennessee
BILL NELSON, Florida                 SUSAN COLLINS, Maine
BOB CASEY, Pennsylvania              ORRIN HATCH, Utah
CLAIRE McCASKILL, Missouri           MARK KIRK III, Illnois
SHELDON WHITEHOUSE, Rhode Island     DEAN HELLER, Nevada
MARK UDALL, Colorado                 JERRY MORAN, Kansas
MICHAEL BENNET, Colorado             RONALD H. JOHNSON, Wisconsin
KRISTEN GILLIBRAND, New York         RICHARD SHELBY, Alabama
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      SAXBY CHAMBLISS, Georgia
                              ----------                              
                 Debra Whitman, Majority Staff Director
             Michael Bassett, Ranking Member Staff Director


                                CONTENTS

                              ----------                              

                                                                   Page

Opening Statement of Senator Richard Blumenthal..................     1

                           PANEL OF WITNESSES

Statement of Kathy Greenlee, Assistant Secretary for Aging, 
  Administration on Aging, U.S. Department of Health and Human 
  Services, Washington, DC.......................................     3
Statement of Robert Matatva, Connecticut Resident and Elder Abuse 
  Survivor, Unionville, CT.......................................    12
Statement of Sandra Timmerman, Ed.D., Assistant Vice President 
  and Executive Director, Metlife Mature Market Institute, 
  Westport, CT...................................................    14
Statement of Pam Giannini, Director, Bureau of Aging, Community 
  and Social Work Services, Connecticut Department of Social 
  Services, Hartford, CT.........................................    21
Statement of Neysa Stallman Guerino, Executive Director, Agency 
  on Aging of South Central Connecticut..........................    25
Statement of Bob Blancato, National Coordinator, Elder Justice 
  Coalition, Washington, DC......................................    28

                   Witness Statements for the Record:

Kathy Greenlee, Assistant Secretary for Aging, Administration on 
  Aging, U.S. Department of Health and Human Services, 
  Washington, DC.................................................    40
Robert Matatva, Connecticut Resident and Elder Abuse Survivor, 
  Unionville, CT.................................................    51
Sandra Timmermann, Ed.D., Assistant Vice President and Executive 
  Director, Metlife Mature Market Institute, Westport, CT........    53
Pam Giannini, Director, Bureau of Aging, Community and Social 
  Work Services, Connecticut Department of Social Services, 
  Hartford, CT...................................................    57
Neysa Stallmann Guerino, Executive Director, South Central 
  Connecticut Agency on Aging, representing the Connecticut 
  Association of Area Agencies on Aging, New Haven, CT...........    63
Robert B. Blancato, National Coordinator, The Elder Justice 
  Coalition, Washington, DC......................................    66

            Additional Statements Submitted for the Record:

Jeanne Franklin, Member, Connecticut Commission on Aging, 
  Connecticut Coalition on Aging and the Board of the 
  Southwestern Connecticut Agency on Aging.......................    70
Robert ``Buddy'' Harkness, Waterbury, CT.........................    72
Carol Hennessey, RN, Sunset Shores Adult Day Health Center, 
  Stratford, CT..................................................    73
Diane McHone, Groundwork Bridgeport, Bridgeport, CT..............    74
Laura Snow, MPH, Program Director, Center for Elder Abuse 
  Prevention, The Jewish Home for the Elderly, Fairfield, CT.....    78


     PROTECTING OUR SENIORS: SUPPORTING EFFORTS TO END ELDER ABUSE

                              ----------                              


                        TUESDAY, AUGUST 23, 2011

                                       U.S. Senate,
                                Special Committee on Aging,
                                                       Hartford, CT
    The Committee met, pursuant to notice, at 10:00 a.m. in 
Room 2C, Legislative Office Building, 300 Capital Avenue, Hon. 
Richard Blumenthal, presiding.
    Present: Senator Blumenthal [presiding].

        OPENING STATEMENT OF SENATOR RICHARD BLUMENTHAL

    Senator Blumenthal. I want to welcome everyone here today. 
Wonderful for me to be back in Connecticut and to be with some 
of the advocates in an area that I consider to be really one of 
the most important to this Congress during this session, and 
certainly to me. Even though I'm a freshman Senator, I've been 
very privileged to be working with Senator Herb Kohl, who is 
chairman of the Aging Committee, and I want to express my 
appreciation to him for the great work that he has done on the 
subject we're going to address today, and also for giving me 
the opportunity to have this hearing.
    We're convened today on the subject of elder abuse. We have 
some extraordinarily important and informative witnesses, and I 
want to just tell you that I will welcome your questions and 
comments for the second panel. Unlike most legislative hearings 
in this building when they are done by state committees, we are 
not going to have public testimonies. This hearing will have 
only invited testimony. But the second panel will be available 
for your questions or comments that can be submitted in 
writing, and we welcome them and hope that you will submit 
them.
    And I want to say how grateful I am to the advocates and 
the professionals who are here today, as well as a number of 
the victims, because your contribution will be extraordinarily 
important.
    We're going to begin with Assistant Secretary Kathy 
Greenlee from the Department of Health and Human Services, who 
is well known for both her passion and her experience, 
extraordinary experience over many years on this subject, and 
who has come to Connecticut to be with us.
    I want to also thank Robert Blancato, who is a long-time 
national advocate and original architect of the Elder Justice 
Act, for lending his expertise and voice to this hearing; and, 
of course, to our other witnesses, Sandra Timmermann, Pamela 
Giannini, and Ms. Neysa Stallman Guerino, for the great work 
that they've done here in Hartford, our state capital, and on 
the front lines on this subject across the state.
    But, of course, first and foremost I want to thank the 
victims who are here today for their courage and perseverance 
in coming forward, your strength in telling your story and 
lending your voice.
    I see that we've just been joined by Senator Edith Prague. 
I thank her for being here. She is a long-time advocate on this 
subject. And the victims who are here today, Robert Matatva of 
Unionville, a hero, a veteran who fought for this country, is 
going to be talking as part of the second panel.
    But a number of others who are not going to be on the panel 
but who are here to lend their support and their personal 
account, Diane McCone of Bridgeport, who was harassed and 
threatened and really beaten by her landlord's son in a 
horrific ordeal that left her homeless and terrified when she 
should have been respected and revered, thank you for being 
here.
    And I want to thank James Beck, the conservator of the 
estate of Buddy Harkness, Robert Harkness, who is here for Mr. 
Harkness today. He is a quadriplegic and was the victim of 
absolutely horrendous abuse at the hands of a nurse, a supposed 
professional who physically and emotionally abused him and is 
now actually serving a prison term as a result. But that kind 
of punishment will never compensate for the harm that she did, 
and Mr. Beck is here as the conservator of his estate.
    I want to just put in context the problem that we're here 
to discuss today. This problem of elder abuse is the crime of 
the 21st century. Some have called it that with great truth. It 
is literally epidemic in our country, and it is a problem that 
is unseen, invisible, often ignored, disregarded. One in 10 
seniors will suffer this year from elder abuse, but in the vast 
majority of cases the abuse will go unreported. In fact, for 
every case that's reported, 13 will be unreported, and that is 
a tragedy, and it is itself an indictment of our society.
    Connecticut can be proud of a lot of what it's done, but 
it's failed to do enough. We had the fourth lowest budget among 
35 states surveyed in 2009 to combat elder abuse. Out of 3,800 
cases, only 446 were properly resolved in our state that year. 
So we have a lot of work to do. We're one of five states that 
received no Federal funding in that year for the work that we 
do on elder abuse, or insufficient funding, and just to give 
you some idea of the dimensions of this problem nationwide, it 
will affect thousands, perhaps millions of our seniors, and 
often the victim will be in the family, a family member, with 
the perpetrator. Often it will be a relative who commits elder 
abuse, and people in positions of trust, whether it's guardians 
or family members or caregivers, need to be more carefully 
scrutinized and given attention.
    The lack of awareness is an enemy here, and one reason 
we're here today is to combat that lack of awareness. We need 
to sound an alarm so that family members will be aware of it, 
look at bank accounts and credit card records so that they can 
see instances of financial exploitation within the family. 
Three billion dollars is lost by seniors who are victims of 
financial abuse every year, and that is an amount that is 
growing, as is the physical and emotional abuse.
    So I have some proposals. I've been privileged to join with 
Senator Kohl in offering a number of proposals, and I think 
there's a potential to go beyond them. There's been a lot of 
work done by the Federal Government in this area, but I think 
that strengthening our Federal justice system and enabling 
states to do more in criminal enforcement is very, very 
important.
    We proposed, for example, establishing an Office of Elder 
Justice in the United States Department of Justice to provide 
support to state prosecutors, and I believe that that Office of 
Elder Justice can be empowered not only to support state 
prosecutions but also Federal prosecutions with enhanced 
penalties through the Mail Fraud Act and other kinds of Federal 
statutes that are designed to combat elder abuse. And 
Connecticut can actually provide a model in providing for those 
enhanced penalties because we've done it here, as you know, and 
I know that Senator Prague was instrumental in supporting that 
effort, as I was when I was attorney general, very supportive.
    So I think there is a tremendous potential to do here what 
we did for child abuse. Child exploitation enterprises are 
prohibited. So should be senior and elder exploitation 
enterprises, and that kind of effort which I'll be describing 
in greater detail at the end of the hearing.
    I would welcome your ideas, your comments, your thoughts, 
your questions. And after that opening statement--I apologize 
for its length--I would like to invite Kathy Greenlee to 
testify.
    She is an extraordinary professional. Before becoming 
Assistant Secretary in the Department of Health and Human 
Services and confirmed by the Senate in June of 2009, she was 
the Secretary of Aging for the State of Kansas. And in that 
capacity, she led a Cabinet-level agency with 192 full-time 
staff members and a total budget of $495 million. She has 
literally devoted her life to this subject, with tremendous 
results in Kansas and nationally. She is now the fourth 
Assistant Secretary in the Department of Health and Human 
Services, Assistant Secretary for Aging, and she has not only 
tremendous experience but also integrity and passion for the 
subject.
    Thank you for being here, Secretary Greenlee.

  STATEMENT OF KATHY GREENLEE, ASSISTANT SECRETARY FOR AGING, 
     UNITED STATES DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Secretary Greenlee. Thank you, Senator. Thank you for 
inviting me. It's not only nice to be here with you this 
morning in Hartford, but it was very nice to meet with you 
earlier this summer, and I think, hopefully, you can tell from 
our meeting that I share both your personal and professional 
commitment and passion to this particular issue.
    I would also like to acknowledge the people sitting behind 
me even though I can't see them directly, the state leaders 
that are here, the advocates and the seniors themselves that 
are also critical to working with us all on this particular 
cause.
    The Administration on Aging is dedicated to protecting the 
rights of older people and to preventing their abuse, neglect, 
and exploitation. Elder abuse is a substantial global public 
health and human rights problem. The World Health Organization 
has declared that elder abuse is a violation of one of the most 
basic and fundamental human rights, to be safe and free from 
violence. Yet, in a recent study, 1 in 10 older Americans 
reported being abused or neglected in the past year, and many 
of them experienced different kinds of abuse.
    Unfortunately, elder abuse appears to be on the rise. 
Available data from state adult protective services agencies 
show an increasing rate in the reporting of elder abuse. In 
spite of the accessibility of adult protective services in all 
50 states, as well as mandatory reporting laws for elder abuse, 
an overwhelming number of cases of abuse, neglect, and 
exploitation go undetected and untreated each year. You 
mentioned the same statistic in your opening comment, that for 
every 1 case that is reported, or comes to the attention of law 
enforcement and other professionals, 13 others do not ever get 
public attention or professional attention.
    These trends are particularly alarming considering what we 
know about the negative consequences of experiencing abuse. 
Older victims of even modest forms of abuse have up to 300 
percent higher mortality and morbidity than a nonabused person. 
Victims of elder abuse have had significantly higher levels of 
psychological distress and lower perceived self-efficacy than 
older adults who have not been victimized. Older adults who are 
victims of violence have additional health care problems than 
other adults, including increased bone and joint problems, 
digestive problems, depression and anxiety, chronic pain, high 
blood pressure, and heart problems.
    The direct medical costs associated with violent injuries 
to older adults are estimated to add over $5.3 billion to the 
nation's annual health expenditures, and the direct costs 
associated with elder financial exploitation were estimated to 
be $2.9 billion in 2009, an increase of 12 percent over 2008.
    For nearly 40 years, the Administration on Aging has 
provided Federal leadership in elder justice programming 
designed to prevent and address elder abuse and their 
consequences. Over the last 20 years, in particular, AoA 
programs have taken a more active role in supporting first 
responders, those programs of adult protective service that are 
directly responding to cases of elder abuse. Over two-thirds of 
adult protective services programs at the state level are 
housed in a state unit on aging.
    The National Adult Protective Services Association has been 
a partner with us, as I said, for 20 years. This has resulted 
in a number of projects and activities specifically targeted to 
enhance APS programs such as national training, core 
competency, and live Web seminars on emerging issues for adult 
protective services. In fact, the 2006 amendments to the Older 
Americans Act authorized states to use part of their Federal 
funding allotments for adult protective services, and many 
states report doing so.
    Despite these efforts and the critical role of APS' first 
responders, programs across the country report many unmet 
needs. For each of the past two years, Senator, since I have 
been serving as Assistant Secretary, I hold a conference call 
with the states right after the beginning of a state 
legislative cycle. I have done this twice in a row to get all 
of the state directors to tell me the state of the states, 
what's happening to state budgets. I start with Medicaid 
because that is a significant problem. I talk about the 
supportive services that states provide in terms of additional 
funding for nutrition.
    But in each of the last two years, probably the most scary 
and sobering number that I've gotten back from the states was 
their direct input to me with regard to APS, that as the states 
around the country are experiencing economic hardship, APS 
caseloads are going up, while many states are laying off or 
furloughing APS case workers. I have not heard of a state that 
treats an APS worker as an emergency worker, as you would law 
enforcement. So they are not exempt from furlough or layoff, 
just at a time when we have increased financial pressures on 
the states and increased problems with elder abuse, especially 
financial exploitation.
    Also, what I know from talking to states and in my work in 
my home state of Kansas, we have a national problem with lack 
of consistent data both at the state level and the national 
level on case statistics or program outcomes, making it 
difficult to demonstrate how very important this program is to 
vulnerable adults and seniors.
    In response, this administration continues to try to 
increase the effectiveness of elder justice and APS programs 
across the country. On July 1st of this year, the 
Administration on Aging published a program announcement to 
fund the first Federal Adult Protective Services Resource 
Center. This center will be dedicated exclusively to supporting 
APS programs with the purpose of enhancing and improving the 
consistency and quality of APS programs. The center will be 
funded with $200,000 a year for up to three years, and we will 
begin our operation by the end of next month.
    In addition, the President's 2012 budget includes a request 
for $50 million for APS demonstration grants to the 
Administration on Aging to help implement the Elder Justice 
Act. This would be the first-ever Federal request for dedicated 
funding for adult protective services. The President's 2012 
budget also recommends an increase of $5 million for the Long-
Term Care Ombudsman Program, critical partners, and I think 
most of us understand that the reason we have the ombudsman 
program was in response to abuses taking place in nursing homes 
in this country in the 1970s. Their mission with regard to 
adult abuse is paramount to their particular charge.
    The President's budget also recommends $1.5 million to 
begin addressing elder abuse in Indian Country. We are looking 
forward to making a grant announcement soon about looking at 
elder abuse in Indian Country from a way that is culturally 
competent to address the issues with Native Americans in a way 
that works for them and their particular culture so that we can 
work on APS in all settings.
    It's important to note that elder rights programs are but 
one of a larger component of other formal and informal supports 
authorized by the Older Americans Act that help older 
individuals maintain their health and independence. The Older 
Americans Act programs remain one of the most important home- 
and community-based services programs that we have for seniors 
in this country. Older Americans Act programs are efficient, 
and they help build system capacity.
    I'm committed to working with you, with other members of 
the Special Committee on Aging, as well as the HELP Committee 
to work on reauthorizing the Older Americans Act as a critical 
anchor for all of the services that we need for seniors. I also 
look forward to working with you on this particular issue.
    I am committed to working on promoting the dignity and 
independence and health of seniors, and there is nothing that 
underpins that more than helping someone live a life free of 
abuse of any sort. I look forward to your ideas and more 
opportunities to work with you as we both return to Washington. 
Thank you very much.
    [The prepared statement of Kathy Greenlee appears in the 
Appendix on page 40.]
    Senator Blumenthal. Great. Thank you so much. I have some 
questions which are designed to draw on your experience not 
only in the Federal Government but as a state official who 
knows firsthand and brings this passion and commitment to 
addressing this problem.
    I wonder if you could tell us a little bit about why you 
think it is so underreported. Is it because family members are 
often involved? Is it simply that it's difficult to detect? If 
you could, perhaps expand a bit on that subject.
    Secretary Greenlee. I don't think there's one answer to why 
it's so underreported. I think one of the complexities of elder 
abuse is that it doesn't fit neatly into any one category, and 
you can thread it out to multiple things like financial 
exploitation; self-neglect, which we don't see with younger 
populations when we talk about abuse; physical abuse; and late-
life domestic violence. The problem that we have is that we 
have not been able to isolate and look specifically at elder 
abuse as a social movement and work with seniors in settings 
where they live.
    I know from working in the area of mental health, for 
example, that seniors won't come to a mental health clinic or 
service. We must go to the primary care physicians. I think 
what's lacking is the ability to embed in other systems where 
seniors naturally occur, the opportunity to screen and provide 
services and training and law enforcement in a variety of 
settings.
    That's why you see in communities like the triad approach 
where you've got multiple types of professionals who are 
intervening, because you will see this in a church setting, 
you'll see this in a doctor's office, you'll get a call from 
law enforcement occasionally, or it will be unseen.
    I am passionate also in talking about family caregivers 
because 80 percent of the long-term care that we have in this 
country for people comes from the family, and that's a core 
component of our long-term care system. But unfortunately, when 
you talk about caregivers, you also have to talk about elder 
abuse. So I think family caregivers are also a new partner at 
the table that we must work with to make sure that caregivers 
provide support, that we can provide intervention with 
caregivers, and also understand as a society that when someone 
receives care from an individual, they are tremendously 
vulnerable, and we must have other supports in place to help 
protect them.
    Senator Blumenthal. ``Vulnerable'' I think is exactly the 
right word. When a family member is involved, the problems of 
detection and apprehension may be even more difficult. So I 
wonder if you've thought at all about ways that that kind of 
problem can be detected.
    Secretary Greenlee. Senator, I will give you my personal 
ideas. I have not had the opportunity to move forward on those 
at all. I have experience working in the field of domestic 
violence in the 1980s, and at that point, working with law 
enforcement, we were encouraging law enforcement to interview 
the victim and the alleged perpetrator separately so that we 
could get honest information from the victim.
    I would like to, in the area of elder abuse and caregivers, 
reach out to the medical community to talk specifically to 
doctors and nurses and others who see seniors and encourage 
them to examine seniors physically and emotionally by 
themselves, outside of the presence of a caregiver, perhaps 
with the caregiver because we often need the caregiver, but to 
understand that just because someone has dementia doesn't mean 
we should automatically shift all of the conversation to the 
caregiver and leave the senior out of the conversation.
    Those are my ideas about protocols that we could look to so 
that we have the professionals who can help us do the screening 
and help us identify if someone is being abused.
    Senator Blumenthal. Would you be in favor of expanding the 
mandatory reporting features of the current law, analogizing it 
to some of the child abuse protections that we have where 
school officials or nurses or doctors are actually required to 
report? Would you similarly expand the Federal mandatory 
reporting?
    Secretary Greenlee. I think so, but I'd want to take a look 
at it. There is an issue with elders that's different than with 
children, and that's the fact that they are adults and they 
have the right for autonomy and self-determination, and that 
always underpins any sort of discussion about whether it's 
appropriate to intervene on their behalf against their wishes.
    So there are some policy issues there that are complicated, 
but also a law enforcement role that's critical. Finding that 
balance and being able to respect the independence of the 
seniors is important. So I'd be willing to be at the table as 
we work through those kinds of questions.
    Senator Blumenthal. Well, I think that's an important area 
to consider.
    You mentioned very appropriately the fact that workers in 
adult protective services and similar kinds of state agencies 
are not given the emergency status or may not receive the kind 
of priority that other law enforcement officials do. And I 
wonder whether there are some states that do provide that kind 
of status.
    Secretary Greenlee. Senator, I don't know because I've not 
polled all of the states. Based on my personal experience in 
Kansas with APS workers, I was not running the APS program, but 
I know that they were not exempted or considered to be law 
enforcement-type first responders. Certainly in the national 
call that I've had with states, we ask about this specifically, 
and I have not had a state identify that they're treated 
separately. There may be some that are, but certainly I have 
been alerted to this concern of growing case loads, decreasing 
staff members and the severe budget crisis that states are 
facing.
    Senator Blumenthal. And I wonder if you could talk a little 
bit about the Older Americans Act and why it's so important to 
reauthorize that bill in light of the comments that you've made 
already.
    Secretary Greenlee. The Older Americans Act was passed in 
1965 as a part of three laws that are critical to seniors and 
their health and longevity, Medicare and Medicaid being the two 
that are larger certainly. The Older Americans Act was passed 
to provide preventive services for seniors, to provide 
supportive services to seniors who are vulnerable and at-risk, 
to help them stay healthy and independent in their homes, to 
avoid worse outcomes if they stay at home and they don't have 
support, or avoid needing to move to a nursing home.
    That need for seniors has not decreased. In fact, we have 
the same commitment and the same desire voiced by seniors, with 
increasing numbers needing those supports.
    I think it's important we provide good programs, we have 
good outcomes. But having a meal, having in-home supports, 
transportation to the doctor, ombudsman services, preventive 
health services, these are critical components of helping very 
at-risk seniors remain independent and healthy. We have 
wonderful programs, good best practices, and this is a good 
time to talk about what we can do in this country in a 
positive, bipartisan way for our seniors to help them retain 
their dignity and longevity in the community. It's a very, very 
good program.
    Senator Blumenthal. When you think about the elder abuse 
problem and reauthorizing the Older Americans Act or providing 
the kind of resources that you suggested, in a way reducing the 
cost of elder abuse in terms of injury that requires hospital 
care sometimes but certainly medical care almost always, and 
other kinds of costs that may be more difficult to quantify, 
it's really very cost effective to reauthorize the Older 
Americans Act and take stronger action to prevent this kind of 
abuse.
    Secretary Greenlee. I'm glad you put both of those together 
in your question. I think it's important to look at the 
services that we provide and be able to quantify the savings to 
the medical system or to the Medicaid system. That's valuable 
for Federal and state governments to be able to demonstrate 
that this is cost effective and efficient.
    It's also the right thing to do for people. I personally 
believe that especially when you're talking about elder abuse 
and some of these basic services, that that's the role of 
government, to provide a protective level to help people, and I 
think that's equally important as we talk about elder abuse.
    The Older Americans Act has a long history of working in 
this field of elder abuse and elder justice. The passage of the 
Elder Justice Act as a part of the Affordable Care Act gives us 
new mechanisms to move forward. That's why I was so excited 
about the President's budget recommendation to provide the 
first dedicated Federal funding for adult protective services 
so that we can use our background, our expertise, and move 
forward with APS.
    As I mentioned, two-thirds of the state units on aging run 
both. I know Ms. Giannini is going to talk today, because she's 
in charge of both programs here. And in the states that run 
both, they will tell you that critical tools for an adult 
protective service worker are Older Americans Act programs that 
they can offer to help someone get out of a situation of abuse 
and maintain their independence.
    Senator Blumenthal. I wonder if you could talk a little bit 
about the resource center idea, because for many of us here it 
may be a new concept, and what it would do, how it would impact 
this problem.
    Secretary Greenlee. I talked a lot in my testimony about 
adult protective services. That is a government-supported 
intervention for elder abuse that fits in the confines of a 
much broader topic, a much broader conversation. We want to 
support a National Center on Elder Abuse that considers all 
settings, much like you and I were discussing, with doctors and 
other professionals, but also have the expertise to work 
directly with APS to provide assistance for them on training, 
and to look at what sort of data we need to be gathering.
    As I talk to APS workers and have gone to the APS 
conference, I often hear that the fractured nature of the 
state-by-state system makes it difficult to identify best 
practices and training. I think the role of the Federal 
Government can be to pull this up and distribute it back out so 
that all states can benefit from the good practices of other 
states and help them share among themselves as we look for new 
opportunities to continue to expand our support for them.
    Senator Blumenthal. And a number of states actually like 
Connecticut have enhanced penalties punishing elder abuse. I 
know it's not a new construct to you, but I wonder what you 
would think about adapting it to the Federal Government.
    Secretary Greenlee. You know, Senator, you're asking me 
about law enforcement and criminal questions, which I really 
cannot----
    Senator Blumenthal. It's unfair.
    Secretary Greenlee [continuing]. Well, I cannot respond to 
that issue. But I would like to work with the Department of 
Justice in any venue and sit at the table and talk about what 
that would mean if penalties were enhanced. Anything we can do 
to increase the support for law enforcement I believe we should 
do, whether that's the police, an investigating body, or the 
prosecutor. I'm quite willing to help and look at those 
partnerships.
    Senator Blumenthal. You know, so many of these problems are 
related, if only because some of the people who commit these 
crimes may have committed other kinds of crimes that also prey 
on vulnerable people. The people who prey on seniors may be the 
same people who prey on children. And so enhancing the 
penalties for crimes against children may be very appropriate 
for people who prey on seniors. And I think that, again, the 
Adam Walsh Act, where we have enhanced at the Federal level the 
penalties for crimes committed against children, provides a 
useful model for how we can avoid some of the constitutional 
problems but still provide really tough, effective penalties at 
the Federal level that in turn can influence what happens at 
the state level.
    You know, we have with us today a conservator for Buddy 
Harkness, who was the victim of some horrific abuse, and yet 
the person who committed that crime is serving only a 14-year 
sentence, which, in my view, knowing the facts as a one-time 
prosecutor, it's certainly less than I think a lot of folks 
would think was merited. So I think that the more we can impact 
the awareness and the kind of attention that's given to this 
problem, as you're doing today, as you've done for a long time, 
is very, very important.
    Secretary Greenlee. Senator, I agree with you. I think that 
the penalty needs to reflect the seriousness of the crime. It 
shouldn't be excused in some way or overlooked because the 
person is old.
    I also believe that when we talk about law enforcement, 
that we have to deal with the very complicated issue of 
families because that's what you and I both have been talking 
about this morning. We need to make it very clear to families 
that these are criminal behaviors, that it's not okay to spend 
your loved one's money or to take advantage of them, and that 
they will be treated as criminals and prosecuted as 
appropriate, that this is something, not necessarily a crime of 
strangers or acquaintances but a very personal crime of 
families, and that becomes more heartbreaking but also more 
complicated to resolve, I think.
    Senator Blumenthal. And I think your reaching out to 
prosecutors is very important because it really has to be a 
multidisciplinary effort, which I know you're encouraging to be 
done.
    Secretary Greenlee. Yes.
    Senator Blumenthal. You mentioned in your testimony the 
idea of a national plan, which suggests that you're working on 
even more in terms of what HHS will do, and I'd like to give 
you the opportunity to expand on that.
    Secretary Greenlee. Senator, I was just very excited that 
the Elder Justice Act passed as a part of the Affordable Care 
Act, and my excitement was tempered by the fact that it was 
passed without an appropriation. The states do get some money 
federally to deal with adult protective services, but it's a 
state-by-state decision based on how they spend their Social 
Services Block Grant.
    The goal of the Elder Justice Act was to provide dedicated 
funding to make sure that we have the resources in every state. 
The President's budget recommendation for 2012 was a down 
payment of a way for us to get started on implementing the 
Elder Justice Act by providing demonstration grants. I'm 
committed to continuing to work on that issue, to bring it to 
the attention of the administration, to work with the 
advocates. There were some major victories in passing this law, 
and I hope to see them realized.
    Senator Blumenthal. My hope is that this Congress will also 
reauthorize the Violence Against Women Act. I think we need to 
do that, which again is related to elder abuse. So perhaps 
you'd like to comment from your experience. I know in my 
experience and from what I've read, women are more likely 
actually than men to be victims of elder abuse. Would you 
agree, or not?
    Secretary Greenlee. There were two murders last week in 
Washington, D.C. of elders, a woman who was 91 who was killed 
by her husband who was 20 years younger--this is a domestic 
violence situation--and a woman who was killed allegedly--I 
mean, these are investigations at this point--by a neighbor who 
was a teen.
    So we have domestic violence going up, we have 
acquaintances taking advantage of seniors, and we have 
strangers who are perpetrating violence. We have seniors who 
are sexually assaulted. We must work with the two major 
movements, both domestic violence and sexual assault, to make 
sure that those movements recognize and serve the growing 
number of seniors who are victims. We have increasing numbers 
of seniors coming with the aging of the baby boom, and those 
domestic violence and sexual assault services are critical and 
very supportive.
    I know the Vice President has been someone who has been a 
champion especially of the Violence Against Women Act. I think 
he was one of the primary sponsors of that law. So I'm also 
looking forward to being able to work with the Vice President's 
Office to bring attention to elder abuse. It's the third 
version of a very significant problem that we all need to 
address.
    Senator Blumenthal. Well, I think your discussion today has 
been enormously helpful, and I really want to say how much I am 
looking forward to continuing this work with you, and I know 
that Senator Kohl as chairman of the committee is absolutely 
committed to it. He's very enthusiastic about you being here 
today and about this hearing. So I want to congratulate you and 
Secretary Sebelius for the great work that you've been doing, 
and again thank you for being here today. If you have anything 
you'd like to say in closing, I would welcome it.
    Secretary Greenlee. I had mentioned the support of the 
President in the budget, the Vice President with the Violence 
Against Women Act, but I appreciate you bringing up the 
Secretary. As most people know, I've had the privilege of 
working with Kathleen Sebelius for 16 years, so I have many 
titles with her--commissioner, governor, secretary. She and I 
have worked well together for a long time, and she knows of my 
commitment. And I likewise know of hers, that these issues of 
abuse are important to her. She's always been very supportive 
of this work, and I look forward to generating every idea we 
can think of so that I can take those ideas to her and find 
other ways for HHS to be supportive.
    Senator Blumenthal. I hope this message reaches the super-
committee that's been established by the Congress to propose 
solutions to the debt and the deficit, and as much as I am in 
favor of reducing unnecessary and wasteful government spending, 
and we have to reduce the deficit, we have to reign in the 
debt, I think we need to do it in smart ways that are also 
cost-effective in preventing additional spending and cost, 
which stopping elder abuse clearly does.
    And so I hope that your message will reach the Congress 
even before we come back and before the plan is submitted in 
November, and anything I can do to help you in that way I'd be 
happy to do.
    Secretary Greenlee. Thank you. Let's hope it reaches the 
super-committee in a good way and not a bad way.
    Senator Blumenthal. Right.
    Secretary Greenlee. Yes. Thank you, Senator.
    Senator Blumenthal. Well, thank you so much for being here.
    Secretary Greenlee. Thank you.
    Senator Blumenthal. We are going to go to the second panel.
    [Applause.]
    And I'll invite them to come forward.
    [Pause.]
    Let me--I think since the space is limited here, maybe what 
we can do is take two and then the remaining three members of 
the panel separately.
    So let me first welcome, and I really mean welcome, Robert 
Matatva, who is a resident of Unionville, where he moved in 
1928. He served in the United States Marine Corps during World 
War II, joined after Pearl Harbor, was stationed in 
Guadalcanal, and then fought in the South Pacific, and with 
good reason is a member of the Iwo Jima Association, Survivors 
Association. He married Elizabeth Bette Deegan in May of 1946. 
They had four children, and he started the Edward Motor Service 
in Unionville, Connecticut, in 1948. So he's been a resident of 
Connecticut for a long time, although he lived for a while in 
Florida, a veteran who fought with tremendous courage and 
distinction in World War II and truly deserves to be called one 
of the members of the Greatest Generation.
    Thank you for being here, Mr. Matatva.
    And we are also going to hear from Sandra Timmermann, who 
is Assistant Vice President at MetLife and Executive Director 
of MetLife Mature Market Institute. She's a nationally 
recognized gerontologist with over 25 years experience in the 
field of aging. Before joining MetLife she held senior staff 
positions with several national aging organizations, including 
the American Society on Aging, AARP, and SeniorNet, and earlier 
in her career she worked for various corporate clients as an 
account supervisor and in public relations and marketing. She's 
now responsible for research, education, and consulting on 
aging at MetLife and its business partners, and she has a B.A. 
degree from the University of Colorado, and she has an M.A. and 
a doctorate in education degree from Columbia University.
    Thank you both for being here. And why don't we begin, Mr. 
Matatva, with your testimony, if you would be kind enough.

  STATEMENT OF ROBERT MATATVA, CONNECTICUT RESIDENT AND ELDER 
                         ABUSE SURVIVOR

    Mr. Matatva. Good morning. My name is Robert Matatva, and 
I'm from the great Connecticut town of Unionville, the town 
where I grew up, started a business, built a home, and raised a 
family. This is a state and a country that I love, and I'm the 
one who served with honor and dignity as a World War II 
veteran.
    I come to you to testify as a proud survivor. I survived 
World War II, serving in the 3rd Marine Division in the South 
Pacific. I survived a gunshot wound in the back which left me 
87 percent disabled and made me a Purple Heart veteran. I 
survived the loss of my kid brother at the Battle of Iwo Jima. 
I survived losing the love of my life, my soul mate, my wife, 
of cancer at a young age. I survived being diagnosed with 
cancer myself on two separate occasions. I share this with you 
because I am proud that I have always been a fighter, a 
survivor who could handle whatever situation may come my way no 
matter how big or troubling that problem may be.
    But today, I join you to share my story as a survivor of 
elder abuse. This is a story that is much harder in so many 
ways for me to share with you because I was victimized at the 
hands of someone I loved. I served my country with pride and 
love, and I have tried to serve my family the same way. But in 
all the 90 years, I could never have prepared for the hardship 
that I would be put through by a member of my family, a person 
that I once trusted, loved, and called him my son.
    He is the reason I am here today to share with you my story 
of survival and stand up for all those who have been victimized 
and for those that are still being victimized at the hands of 
those they know and trust. My son did to me what the flood of 
the Farmington River failed to do in 1955 when it threatened to 
take away my business. After that flood I developed a motto, 
``washed out but not washed up.'' My motto stayed true for all 
the years that followed the flood in 1955 until my son, who 
worked for me in my business since he was a kid and whom I 
trusted and loved, washed it all away without me even knowing 
it.
    But my story starts in much simpler times, before this 
hearing, before my business, properties, and home were withheld 
or destroyed. It starts here in Connecticut after the war when 
I returned home from the South Pacific. I came home to a 
country I had fought for and was unable to get my job back 
because of my disabilities. I refused to become a victim. I 
decided I would start my own business, and in 1948 I opened up 
an auto repair business in Unionville. I named the business 
Edward Motor Service after my kid brother Eddie, who was killed 
on Iwo Jima.
    After starting my business, I then built a home for me and 
my late wife Bette to start a family in. I built this dream 
house for us with my own hands. I built the whole house by 
myself. In that home we raised our four children, one who years 
later would take away all that I worked for, a business and a 
beautiful home at the lake, summer home, and a home included.
    In my later years I left the business, Edward Motor 
Service, and my properties here in Connecticut to my son John, 
and I went to Florida. My son John told me that he would watch 
the business, my properties and my finances in trust for me. I 
never wrote anything down, demanded I have my own attorney or 
anything. He told me there was no need. It was a good faith 
arrangement, and the paperwork he was giving me to sign would 
be just a formality, and he would only look after things until 
I returned.
    I signed my estate over to my son, all my finances, because 
I trusted him. I had no mortgages or anything on anything that 
I owned.
    In 2010, 26 years after my wife Bette had died of cancer, 
and just a few years after I myself was diagnosed with cancer 
for the second time, I returned home to Connecticut from 
Florida. I returned home to spend my remaining years with my 
family and loved ones. I had planned on living out my remaining 
years at the home where Bette and I started our family and 
shared so many memories.
    However, when I arrived at my home, my son refused to let 
me in. He told me if I wanted my house back, I'd better get a 
good lawyer. He then began and demanded I pay him $1,000 a 
month if I wanted to live there. I was heartbroken. I was 
shocked to find that he had developed the back parts of my 
property as two-family houses without my knowledge. Strangers 
had more access to my property and home than I did. I learned 
that he had also done what the flood of Farmington had failed 
to do. I felt washed up.
    I had fought all my life to make a better country, state, 
and town for my kids to grow up and start their own families 
in. I trusted my children, as any father would. I'm lucky to 
have three wonderful children, Robert, Patricia, and Mary-Jo, 
who are with me today here. They have made me proud and have 
been taking care of me. However, their brother, my son, failed 
me and hurt me in a way that no amount of words or testimony 
could appropriately describe and do justice.
    I gave him everything I had worked so hard for. My other 
three children did not ask or expect anything, any properties 
or any business from me, and what I gave him to take care of 
and preserve he took over ownership 100 percent. I have nothing 
left. He left me out in the cold and demanded I pay him or get 
a good lawyer if I wanted to stay in a home which I built with 
my own two hands and raised him in. He left me out in the cold. 
I never thought that I would be a victim. I never thought that 
my own son would turn me into a victim of abuse. However, as I 
testify today, I'd like to think that I am doing so as a 
survivor.
    While this situation is not resolved, I have not given up. 
I will not give up. If today's hearing helps one person in a 
familiar situation and helps another to prevent this from 
happening to them, I'll be happy and proud. I will have 
survived this horrible experience and all of us will have won a 
great victory. Thank you.
    [Applause.]
    [The prepared statement of Robert Matatva appears in the 
Appendix on page 51.]
    Senator Blumenthal. Thank you, Mr. Matatva. Thank you.
    I have some questions for you, but I'm going to ask that 
Sandra Timmermann give her testimony before I go ahead.

STATEMENT OF SANDRA TIMMERMANN, Ed.D., ASSISTANT VICE PRESIDENT 
         AND DIRECTOR, METLIFE MATURE MARKET INSTITUTE

    Dr. Timmermann. Thank you very much, Senator. I'm very 
pleased to be here today, and I compliment the committee for 
focusing on elder abuse.
    And in addition, I'm a constituent and a representative of 
a constituent employer, so I want to thank you for your long 
history in addressing this topic in our state.
    And then I also want to thank Mr. Matatva for putting a 
human face on what I'm going to talk about, which is a study 
that we conducted on financial abuse. So I thank you very much 
for sharing your story.
    Mr. Matatva. Thank you very much.
    Dr. Timmermann. The Mature Market Institute of MetLife is a 
research and education entity within the company, and we share 
a similar goal with the committee to create greater public 
awareness of the extent of the problem and steps that families, 
the community, and policymakers can take to tackle it.
    This morning I would like to highlight a national study 
that we recently released on elder financial abuse, and then 
offer some suggestions for older people and family members to 
help prevent it.
    The main finding from the research was startling, and 
actually you referred to it earlier in your opening remarks, 
and that is that the annual financial loss by victims is 
estimated to be at least $2.9 billion, and that was a 12 
percent increase from the $2.6 billion we estimated in 2008.
    These two studies were really the first to assign a dollar 
value to the financial impact of elder abuse, and we think it's 
just the tip of the iceberg because, as you know, it's very 
difficult to document these kinds of figures. And in the case 
of financial elder abuse, we estimate that four out of five 
cases go unreported, so it's even a higher report situation.
    We also found that 51 percent of the perpetrators were 
strangers, and this would be people like home repairmen, 
telephone solicitors, or maybe common criminals who see an 
elder in a shopping mall or something of that sort. Thirty-four 
percent were family members--that applies to something that Mr. 
Matatva spoke about--or were friends, neighbors, and 
caregivers, people that the victim trusts. And 12 percent were 
business professionals, including nursing home operators.
    You mentioned earlier about the profile of the victims in 
your remarks. We found that the average victim in our analysis 
is a woman in her 80s living alone, exhibiting visible signs of 
cognitive or physical impairment, and requiring some type of 
assistance, yet still trying to be independent. These are all 
conditions that give the perpetrator a good opportunity to 
strike.
    We know that elder abuse can affect people of all walks of 
life, but I think the greatest impact is on those who have 
limited incomes, and then they find themselves wiped out of 
their savings. You put a good story forward for us, but I also 
wanted to talk about a few other cases that we analyzed for the 
study as an example of putting another human face on what we 
found, and I'll just read a few of these off. I think they're 
quite interesting.
    Two water purification salesmen were arrested for taking 
more than $37,000 from an 88-year-old woman for filtration 
equipment valued at no more than a few hundred dollars.
    A 29-year-old woman pleaded guilty to stealing more than 
$100,000 from two disabled people. She married one of her 
victims, a 64-year-old man who suffered from mental and 
physical handicaps, and took more than $50,000 from his bank 
accounts. She also cashed checks worth $60,000 from a 90-year-
old dementia patient.
    An 85-year-old woman received a phone call from her 
granddaughter saying that she was out of the country and needed 
money to get home, and it turns out it wasn't her granddaughter 
at all and she'd wired money to a con artist.
    Two nursing home operators left over 300 residents without 
basic necessities such as food and medicine as they attempted 
to defraud Medicare and Medicaid for over $30 million.
    Policy interventions are important, and we're gratified 
that you're addressing those. There are also some preventive 
measures that can be taken by older people themselves and 
family members. For example, we recommend that people make it a 
point to carefully monitor their financial affairs. They should 
check credit card and bank statements regularly, use direct 
deposit to prevent mail theft, and not let anybody sign checks 
on their behalf.
    For telephone scams, we suggest using an answering machine 
and caller I.D. to screen the calls and then sign up for the 
National Do Not Call Registry, and of course put legal 
documents and important papers in a secure location, and 
consider the benefits of a durable power of attorney so that a 
trusted individual can make financial decisions if needed.
    And, of course, family members have a role to play as well, 
although we do know so many family members are the 
perpetrators. But many caring family members are not aware that 
their loved one has been financially mistreated. So it's really 
important to be on the lookout for signs of abuse. Things like 
changes in mood or appearance may suggest abuse. Other signs 
are hesitation in speaking openly, anxiety, changes in sleeping 
and eating patterns, that sort of thing.
    One's decreased ability to manage financial matters is 
often an early sign of dementia, so observing changes in 
managing daily activities, paying bills, losing papers, 
forgetting appointments are red flags that families should be 
aware of and might call for a cognitive evaluation.
    Tip sheets on preventing elder financial abuse, as well as 
the full MetLife Elder Financial Abuse study, conducted with 
the National Committee for the Prevention of Elder Abuse, our 
website. They can be downloaded from 
www.maturemarketinstitute.com.
    In conclusion, elder financial abuse can decimate incomes 
and assets, both great and small, can fracture families, and 
cause premature institutionalization. And despite the growing 
public awareness stemming from high-profile financial abuse 
cases--Mickey Rooney and the philanthropist Brooke Astor are 
examples--it still remains underreported, underrecognized, and 
underprosecuted.
    Thanks again for sponsoring the hearing. It takes a really 
important step in calling attention to the problem.
    [The prepared statement of Sandra Timmermann appears in the 
Appendix on page 53.]
    Senator Blumenthal. Thank you very much. Thank you to both 
of you. I have some questions, and I would invite folks who 
want to submit other questions to do so in writing, and we'll 
collect them from you if you just raise your hand.
    I'm going to begin with you, Mr. Matatva. You used a very 
important word in your testimony, ``trust.'' I gather that 
there were no indications that you could not trust one of your 
children.
    Mr. Matatva. Well, originally I was informed by a family 
attorney that what I was doing was to protect my other children 
from taxes when I died, and I said, well, what if I want to 
come back? He advised me that no matter what----
    Senator Blumenthal. By the way, I don't want you to talk 
too much about what lawyers told you because----
    Mr. Matatva. No, no.
    Senator Blumenthal [continuing]. I don't want to impact 
what may be occurring in your life so far as your legal status 
is concerned.
    Mr. Matatva. No. I just want to say that I was victimized 
and didn't realize what I was doing. It was a very bad mistake, 
and as I said, it took me my 90 years to realize that you can 
be taken today. You have to be very careful, be very careful 
with anything that you do, or don't sign anything until you get 
a lot of respect and talk from people that know or can help you 
out.
    Senator Blumenthal. So sometimes it helps to seek counsel 
from a professional before you----
    Mr. Matatva. That's right.
    Senator Blumenthal [continuing]. Sign something when you're 
dealing with a family member.
    Mr. Matatva. That's for sure.
    Senator Blumenthal. Well, that's where I'm going because I 
know that you have very strong support, as you mentioned 
earlier, from other family members who, by the way, are here 
today. Three of your children are here today in support of what 
you're doing, and without belaboring the obvious, your courage 
and strength and fortitude in coming forward today is really 
remarkable because it sends a message to others who may be 
victims that they should come forward as well and seek help.
    Mr. Matatva. Well, that's what my reason for being here is, 
to try to prevent someone else from the same thing happening to 
them that just has happened to me. And as I say, if we do save 
one or two people, we have a victory.
    Senator Blumenthal. And your family helped you when----
    Mr. Matatva. They helped me. They certainly helped me 100 
percent, and that's why they're here today. They're here today 
to help me. And as I told you, I don't have that many more 
years left. I've got to try to get this thing resolved so that 
the rest of my family can benefit a little from all my hard 
work. And I thank you very much for inviting me.
    Senator Blumenthal. Well, I will be very blunt, which is 
that a lot of people would not want what they might see as the 
embarrassment, even though it shouldn't be, of coming forward 
and telling their story, or the public attention that might be 
entailed, and it takes a very big man, I mean not big in 
stature, big in character to do what you're doing today.
    Mr. Matatva. Thank you very much.
    Senator Blumenthal. Ms. Timmermann, I wonder if you could 
comment, because the MetLife study that--and, by the way, I 
recommend it very strongly--comment on the likelihood of women 
versus men being victims of elder abuse. We have obviously both 
women and men represented here today, and I think that the 
MetLife study, if I'm not mistaken, says that men are more 
likely to be the perpetrators. Sixty percent of the 
perpetrators are men. But women are more likely to be the 
victims, and if you could talk a little bit about that.
    Dr. Timmermann. Yes. We found that there were twice as many 
victims who were female as opposed to male, and of course part 
of it is longevity because women do live longer, and 
unfortunately it's likely that as you live longer, you do 
develop some chronic conditions. I thought what Secretary 
Greenlee mentioned was important too. So many of us want to be 
independent as long as possible and age in place. It's our life 
to live, and sometimes we want to be home even though there are 
some dangers around us. But many elders are in a very tenuous 
situation because they are showing some signs of vulnerability, 
yet they still are hanging on to their hope that they can stay 
at home. Also many people were very trusting in the generation 
that I'm talking about are very trusting.
    So when someone is coming to the house, particularly a 
woman who needs home repairs who might very well be a widow 
because, again, woman outlive men, a nice young man who wants 
to help with home repairs, or a nephew, I think the 
vulnerability shows because they do need help.
    Senator Blumenthal. One of the questions that really, I 
think, follows from that comment and is a question from Laura 
Snow, who is the program director of the Center for Elder Abuse 
Prevention at the Jewish Home for the Elderly, what role do you 
think financial institutions can and should play in the 
detection of these kinds of problems?
    Dr. Timmermann. I think that's very important and really 
one of the reasons that we were interested in the study as 
well, because financial professionals are interacting with 
older clients, and many of their clients have been with them 
for years and years, and they have the client relationship. If 
a client walks into the office of someone they've known for 
years and asks them to change the name of the beneficiary on 
their will or on some legal papers, the financial advisor is 
really on the front line.
    And so there's no easy answer to that. They really do need 
to report it certainly to a compliance officer, to the manager 
of their agency, and then of course adult protective services. 
And we tried to help the advisors think about the ethical 
issues involved, because it's so important for them to respect 
the desires of their client without breaking the confidence. At 
the same time, you don't want to put someone in danger. So it 
is something we all care about in the field of financial 
services.
    Senator Blumenthal. What do you think about mandatory 
reporting requirements? It would not have helped Mr. Matatva 
because his transaction didn't go through a financial 
institution or other kind of service that might have reported 
the problem if they could have detected it. But financial 
institutions have access to checking accounts and other records 
that can reflect either sizeable or untoward kinds of use of 
money, and should they have some kind of mandatory reporting 
requirement or, for example, doctors or others who may see 
physical abuse?
    Dr. Timmermann. It seems to make sense in principle. I'm 
not a financial service advisor. I'm a researcher and educator 
and was brought into the company for that reason. So I'm not 
able to answer that definitively, but I really do feel that 
advisors need to be strongly encouraged at this point to do 
something, because if they don't, they're not only putting the 
client in danger but they're also endangering their practice, 
and I think it makes sense to me that we need to move forward 
in this direction.
    Senator Blumenthal. Do you think that institutions of the 
kind for which you work are doing enough? Should they do more? 
Can they do more?
    Dr. Timmermann. I think that the whole area of ethical 
behavior is very important in all the professions. Every 
company that wants to continue to operate ethically needs to 
have this high on their agenda. The reason we did the study was 
to call public attention to it--that's the role that my 
department plays--but we also wanted to make people within the 
company more aware of issues like this because as you have 
pointed out, this is the crime of the 21st century. People are 
not as aware of this as they should be.
    Senator Blumenthal. And do you have an explanation as to 
why financial exploitation seems to be underreported based on 
your experience and your study?
    Dr. Timmermann. I think it's hard to find dollar figures. I 
also think some of the things you mentioned about elders' 
embarrassment really have something to do with it. And then the 
amounts may seem small, but for many people the smaller amounts 
really impact their retirement security. Financial exploitation 
hasn't been addressed in the same way physical and emotional 
abuse, and I think as time goes on we'll see more and more 
reporting of the issue.
    Senator Blumenthal. One of the other questions that we had, 
actually again from Laura Snow, is related to the methods of 
your study, the methods of the MetLife study, which used a 
survey of newspapers and public reports. Do you think it 
accurately reflects the type of perpetrators that we discussed 
a little bit earlier?
    Dr. Timmermann. We've worked with the top researchers 
because in my department I don't have experts in every area. So 
for this study we worked with the National Committee to Prevent 
Elder Abuse, and that is a consortium of many organizations, as 
well as some academics from Virginia Tech and the University of 
Kentucky. And as we met about this, we thought how we were 
going to get a handle on monetary losses because on a state by 
state basis, it's very difficult to get these figures. The 
methodology is outlined in the study if people want to look 
into it. I know it sounds unusual, but it was our best way of 
beginning to chip into this, and we did our best to extrapolate 
the losses for a period of time and then analyze what this 
would mean on an annual basis.
    We also looked on the holidays to see if there was an 
uptick in this type of activity based on the news analysis, and 
there was--mainly by strangers. They were incidental crimes 
that took place, robberies or burglaries. As we continue with 
this research--we'll do it every few years--we are working 
really hard to call attention to the issues so there will be 
more reporting of figures--and I hope other researchers will 
try to dig into this on a state by state basis as well.
    Senator Blumenthal. Was the uptick around the holiday time 
in--you mentioned thefts and robberies. Was it primarily home 
intrusions, or were they financial exploitation of other kinds?
    Dr. Timmermann. It included things that happened on the 
outside--in shopping malls, parking lots--as well as some home 
intrusions. I think, too, that family members who are long-
distance caregivers come home at Christmas, and more aware at 
the time of what might have happened. If you're a long-distance 
caregiver and you're away for six months and come home for the 
holidays, realize something is happening, you may be more 
likely to report. So I'm hoping that journalists will also be 
tuned into this issue more than they have been and increase 
their coverage. That's what we were hoping as a secondary 
outcome.
    Senator Blumenthal. Great. Do we have any other questions 
from the audience?
    [No response.]
    I guess not.
    Again, I want to thank both of you for being here today. 
Again, Mr. Matatva, thank you for your service to our nation 
and for being here today, and hopefully we can keep in touch 
with you. Contrary to what you mentioned a little while ago, 
you're around for a long, long time and eventually regain 
access to your home. And we'll be fighting for you and working 
with you in that endeavor as well. Thank you. Semper fidelis.
    Mr. Matatva. I want to thank you both for myself and my 
family.
    Senator Blumenthal. Thank you.
    Mr. Matatva. Thank you very much.
    Senator Blumenthal. Thank you.
    [Applause.]
    We have three more participants in today's hearing, and 
we're going to pull a chair up.
    I mentioned earlier that we were joined by the co-chairman 
of the Aging Committee, Edith Prague, State Senator Edith 
Prague, who has been just a tremendous leader in this area and 
has really contributed enormously to the work of our state 
legislature. I've been very privileged to work with her, and 
anybody who has questions about elder abuse or any other 
subject affecting seniors, she is a resource. So catch her 
while she's here.
    Senator Prague. Thank you.
    Senator Blumenthal. I'm also grateful to Senator Kelly, who 
is here today. I've spent time with him. If you could, raise 
your hand. You may be less well known. Thank you for joining 
us.
    Now I want to express my appreciation to the three next 
witnesses, and let me introduce them maybe not in the order 
that they're sitting, but I'll ask you to testify in this 
order.
    First of all, Pam Giannini, who has been Director of the 
Bureau of Aging, Community and Social Workforce in the State 
Unit on Aging in the Connecticut Department of Social Services. 
That long title I think fails to do justice--I hope I got it 
right--to the enormous contribution that she has made over the 
32 years that she's been in state government in various 
capacities, but all of them dealing with human beings and human 
welfare, and particularly our seniors. She's been responsible 
for elderly nutrition, caregiver support, Alzheimer's respite, 
legal service development, really in dealing with the 
management of all the Older Americans Act responsibilities and 
programs. She now has responsibility and has had responsibility 
over the years for many of those areas and brings tremendous 
experience and expertise to her testimony today.
    I'd like to thank Neysa Guerino, who is at the Yale 
Management and Training Institute in New Haven. She is 
Executive Director of the Agency on Aging at South Central 
Connecticut, whose acronym is AASCC. I hope I got that right. 
She's responsible for that agency's $46 million budget, which 
employs about 150 people, and she oversees the implementation 
of Federally mandated programs, state and local requirements 
for fiscal program operation, and she represents AASCC as a 
liaison to state and local governments, as well as area 
planning groups and community initiatives.
    She actually began with the organization in 1988 as the 
assistant director, and she was appointed executive director in 
1998, and she has a variety of other community involvements 
with organizations and initiatives which are truly too lengthy 
to mention. But she is a graduate of the University of 
California, and she has a B.S., a Bachelor of Science in social 
work.
    Finally, Mr. Bob Blancato, welcome to you again.
    He is the president of Matz, Blancato and Associates, a 
full-time firm integrating strategic consulting, government 
affairs, advocacy services, and association and coalition 
management. And he is the national coordinator of the Elder 
Justice Coalition, which is a bipartisan, 650-member 
organization. He has had a long-time involvement in 
organizations that deal with the problems that we've been 
discussing today in the private sector, but he's also been 
former House staff member, House of Representatives, and spent 
17 years on the House Select Committee on Aging staff. So he, 
too, brings a wealth of experience. He's received many awards 
for his work, including the Arthur Flemming Award and Advocate 
of the Year Award from the Older Women's League.
    Welcome to all three of you. And why don't we begin with 
you, Ms. Giannini?

STATEMENT OF PAM GIANNINI, DIRECTOR, BUREAU OF AGING, COMMUNITY 
                    AND SOCIAL WORK SERVICES

    Ms. Giannini. Good morning, Senator Blumenthal.
    Senator Blumenthal. It's still morning.
    Ms. Giannini. I know. I just checked to see. It was still 
morning.
    I want to thank you for inviting us all here today to talk 
about this very important topic. It's been a large percentage 
of my career that I've spent on protective services for the 
elderly. One of my past experiences was as the coordinator of 
protective services for the entire State of Connecticut and 
wrote the first, with the assistance of staff, the first 
training manual for protective services in the State of 
Connecticut.
    So I am absolutely thrilled that you have placed a 
spotlight on this issue, not only for the State of Connecticut 
but nationally, and I hope that you will be able to bring the 
information from Connecticut back to your committee and share 
it with those that will make some great decisions about how we 
can move forward with this program because we need your help. 
Even though we have some good work being done on the ground 
right now, we can always build upon that and make it much 
better.
    I'd like to start my presentation this morning by just 
providing an overview of the Protective Services for the 
Elderly program here in Connecticut. Protective Services for 
the Elderly was established in 1978 in Connecticut, and it's in 
the General Statutes at 17b-450. Since the beginning, the 
protective services program has served elders over the age of 
60. Our program activities include investigation of situations 
of abuse, neglect, abandonment and exploitation, and 
facilitating related crisis intervention and stabilization.
    The Protective Services Program for the Elderly seeks to 
help vulnerable elders to prevent injury, maintain health, and 
preserve legal rights. Within that context, the program 
espouses values that respect the elders' rights to self-
determination, dignity, confidentiality, and independence. This 
includes the right of competent elders to refuse services and 
make their own decisions. Service interventions are meant to 
support elders in the least restrictive environment, facilitate 
informed decision-making, and utilize family and community 
resources. The program in Connecticut is termed a short-term 
crisis intervention and stabilization program.
    And while most PSE services are provided to elders living 
in the community, social work staff also conduct investigations 
in long-term care facilities.
    Our philosophy in Connecticut about protective services is 
that it's solution focused and places resources on partnering 
with the elder to ameliorate the circumstances that have 
brought them to Protective Services for the Elderly. There is 
less emphasis on determining culpability. However, when 
circumstances rise to the level that requires legal recourse 
against alleged perpetrators, law enforcement is contacted for 
further investigation and potential prosecution.
    You referred in your opening comments to some statistics 
about protective services in Connecticut and the number of 
confirmed cases of abuse. We in Connecticut look towards--you 
know, we had allegations this past year of 4,600 cases. Of 
those, about 3,600 were investigated as being termed in need of 
protective services. But we don't use the term as other states 
do regarding substantiation, and therefore that's how we get 
into that data reporting issue that Assistant Secretary 
Greenlee talked about. We're not comparing apples to apples and 
oranges to oranges here.
    So we need some kind of consistency nationally about how we 
do our reporting and how we collect that reporting; and, of 
course, there's always a cost associated with that, and that's 
what we have to recognize.
    We have specific definitions of elder abuse here in 
Connecticut by statute. The definitions include abuse, which is 
the willful infliction of physical pain, injury or mental 
anguish, or the willful deprivation by a caretaker of services 
which are necessary to maintain physical and mental health of 
an elderly person.
    Neglect refers to an elderly person who is either living 
alone or not able to provide the services which are necessary 
to maintain physical and mental health for himself or herself, 
considered self-neglect, or who is living with a responsible 
caretaker and is not receiving such necessary services from the 
responsible caretaker.
    And exploitation, which we heard about this morning from 
Mr. Matatva, refers to the act of or process of taking 
advantage of an elderly person by another person or caretaker 
whether for monetary, personal, or other benefit, gain, or 
profit.
    And abandonment is just that, when someone leaves an older 
person without any recourse, where they desert them or 
willfully forsake an elderly person by their caretaker or 
person that is supposed to be responsible for them.
    Connecticut's--the process here in Connecticut is that we 
receive reports both written and verbal from any person who 
believes an elder is being abused, neglected, or exploited. 
Upon receiving such a report, the Department is mandated by the 
Connecticut General Statutes to investigate that allegation. 
Initiation of an investigation must occur within 24 hours to 5 
days, depending on the severity of the allegation. The 
investigation includes meeting with the elder, investigating 
the complaint, and ultimately working with and advocating for 
the elder to help them to achieve their desired outcomes. 
Social workers must simultaneously assess the elder's need for 
assistance, the immediacy of the need, the availability of the 
resources to assist the elder, and the ability and willingness 
of the elder to accept assistance.
    This past year, as I said, we had 4,607 referrals of 
alleged abuse in all the various categories, which include 
emotional abuse, exploitation, neglect, physical abuse, self-
neglect, and sexual abuse. We feel that that is only the tip of 
the iceberg in Connecticut, just as all the other statistics 
show. Probably there are 10 times that many people that need 
these services that have gone unreported to our department.
    Staffing within the State of Connecticut is relatively 
limited. PSE investigations are conducted by 81 generalist 
social workers in the Department of Social Services through the 
regional offices. These direct service staff also provide 
support in other programs, including the Personal Care 
Assistance and Acquired Brain Injury Medicaid Waivers, and 
Individual and Family Services, the Conservator of Person 
Program Services, and other programs for persons with 
disabilities.
    So in Connecticut, we do not have staff that are 
specifically dedicated to Protective Services for the Elderly. 
They are generalist providers, and so they have to balance the 
different cases that they have and their case loads depending 
on the priority of those cases.
    I want to talk a little bit about the budget for Protective 
Services for the Elderly and our expenditures. The PSE budget, 
exclusive of our staff costs, is a little under $250,000 a 
year. That's not very much funds to provide direct services to 
this very vulnerable population.
    The services we provide are supportive in-home and 
community-based services such as homemaker, companion, home 
health, major cleaning and chore services, medical care if 
someone does not have medical coverage for a short period of 
time, emergency housing, and legal assistance.
    It should be understood that the social work staff 
associated with the provision of these services is funded by 
the State of Connecticut. No Federal funds are utilized to 
support these positions.
    My quick calculation is that for those 81 staff people that 
work partially for this program and their supervisors and 
management, it's close to $5.5 million.
    It's important to note here in Connecticut that there is a 
vital role that's played by the Connecticut Homecare Program 
for Elders. It's available and state funded and Medicaid Waiver 
option. It helps in supporting elders age 65 and older to get 
needed supports. It serves as a preventive measure because 
staff are often able to identify problems at the onset, 
negating the need for a PSE intervention. Moreover, the program 
is there as a frequent solution for issues of neglect and 
allows elders to receive support from caregivers that are not 
abusive or exploitive.
    So if Protective Services goes into someone's home and 
finds a self-neglecting situation, or someone just doesn't know 
about the services that are available and they're willing to 
accept services, our social workers work to get them eligible 
for the Connecticut Homecare Program for Elders and services 
are provided, and they're kept safe in their own home.
    Connecticut's Protective Service Program would be unable to 
successfully assist these vulnerable elders if it were not for 
the support and services provided through many of our partners. 
These include the access agencies; municipal social services 
and senior centers; health care providers such as homecare 
agencies, hospitals and community health centers; domestic 
violence service providers; the Department of Public Health; 
the Area Agencies on Aging; companion and homemaker providers; 
law enforcement, and all our other legal partners.
    One of the questions you had asked prior to us coming to 
this hearing is how could the Federal Government help, and we 
have many suggestions. You can continue, the Federal Government 
can continue by doing the good work that has begun and by 
advocating for the following. We need an infrastructure that 
provides a Federal home for adult protective services and 
supports the efforts of protective services through additional 
funding for prevention, education, outreach, and staffing 
needs. I must caution you, we do not need any more unfunded 
Federal mandates. We do need your assistance for some funding 
in support of what has passed in the Elder Justice Act and 
appropriate dollars for those things.
    We need support for Federal guidance on the development of 
program standards. Standards for nationwide operation of such a 
program need to be developed and enforced. As you can see, 
Connecticut's program only serves people over the age of 60. 
Other states have APS, adult protective services, for people 
over the age of 18. In Connecticut, we just have protective 
services for our elders.
    We would like access to funding through Federal formula 
grants based on state population size, age of population, and 
number of persons with disabilities.
    We would like to strengthen our connection with law 
enforcement and coordinate much better. A mandate that firms up 
the relationship between protective services and the excellent 
work done by law enforcement at the local level would be very 
helpful to us. Stronger education and action on crimes against 
the elderly and those with disabilities is also needed. And 
Connecticut's work with the Chief State's Attorney needs to be 
built upon to assist local law enforcement in answering the 
ever-growing needs of this population.
    I'd also--Connecticut has a very vibrant TRIAD program, and 
you have been instrumental when you were here as the Attorney 
General in support of that, and we would like to continue that 
collaboration and expand it where we have community partners, 
the police and local businesses targeted to assisting the 
population, and this is valued by the entire community.
    We have some next steps here in Connecticut that we're 
interested in exploring, and we'd like to work in concert to 
strengthen our relationship with our partners. This includes 
ongoing and increasing collaboration with Connecticut Judicial 
Branch and our legal service providers to facilitate legal 
advocacy and justice. We continue to work to expand our 
multidisciplinary team efforts where we bring groups together 
at all levels. Our Area Agencies on Aging are instrumental in 
continuing that with the money that's provided through the 
Older Americans Act under Title 7. It's not a whole lot of 
money, but it is a wonderful effort when people can get 
together and talk about difficult cases and how those can be 
resolved, and bringing in law enforcement, bringing in social 
service providers, bringing in different representatives of the 
community to educate them in how we can resolve these issues.
    So we are in the early stages as well of exploring 
opportunities for the development of statewide financial 
exploitation prevention and awareness partnerships with the 
Connecticut Department of Banking and Connecticut financial 
institutions. We're just at the first steps of doing that. 
We've done some work with People's United Bank here in 
Connecticut, as you know, and we'd like to expand that to other 
banks. Bank employees are not mandatory reporters in the State 
of Connecticut presently, and there is some controversy over 
whether that would be appropriate or not, but we'd like to look 
at that as a possibility.
    We'd like to thank you for this opportunity, and I would be 
thrilled to work with you on this issue in any way I can. Thank 
you very much.
    Oh, and by the way, if anyone would like to report a case 
of protective services that they think there's a need in the 
community, there's a 1-800 number, and since this is televised, 
I'd like to share that with you. It's 1-888-385-4225. And that 
goes into our regional offices. So thank you very much.
    [The prepared statement of Pam Giannini appears in the 
Appendix on page 57.]
    Senator Blumenthal. Thank you very much.
    Ms. Guerino.

   STATEMENT OF NEYSA STALLMANN GUERINO, EXECUTIVE DIRECTOR, 
          AGENCY ON AGING OF SOUTH CENTRAL CONNECTICUT

    Ms. Guerino. Thank you. Thank you, Senator Blumenthal, for 
this opportunity to testify on elder abuse. I am here today as 
Executive Director of the Agency on Aging of South Central 
Connecticut and representing my colleagues in the other area 
agencies in the State of Connecticut through the Connecticut 
Association of Area Agencies on Aging.
    We are all private nonprofits, and we touch the lives of 
thousands of older adults through our Aging and Disability 
Resource Centers, through our SHIP projects, through the 
Statewide Respite Program, the Medicare Savings Patrol 
programs, the National Family Caregiver programs, as well as 
through our Title III of the Older Americans Act programs. So 
you can see, we have a wide touch into the lives of older 
adults in our community.
    Our staffs are seeing more and more cases in the area of 
self-neglect, financial abuse by both paid and family 
caregivers, as well as physical neglect by caregivers not 
attending to the physical needs of the frail, older adults they 
care for. I'd like to share with you several examples of what 
we have experienced as Area Agencies on Aging.
    The first case. An elderly woman called the Area Agency to 
request help paying for a homemaker. The care manager scheduled 
a home visit and found the client sitting in a recliner in the 
kitchen surrounded by clutter. Several rooms were unusable due 
to the extreme debris and dirt. The woman was covered in a 
blanket, and the care manager noticed several roaches on the 
blanket and under the chair. Upon removing the blanket, the 
care manager found that the client had open wounds on her legs 
and the roaches were rampantly crawling on her body. Of course, 
protective services was called, as well as the client's doctor, 
who ordered a VNA assessment. The client was subsequently 
hospitalized.
    Case two. Ms. G. lived alone in elderly housing and had 
been diagnosed in the early stages of Alzheimer's type 
dementia. Through the Connecticut Homecare Program that Pam 
mentioned earlier, Ms. G. received services of a homemaker who 
assisted her with cleaning, meal preparation, and grocery 
shopping. Ms. G.'s son assisted the client with managing her 
checking account. In reviewing the account, the son noted there 
were three withdrawals totaling $1,060. The police and elderly 
protective services were notified. The police obtained bank 
video showing the homemaker in the bank withdrawing the money.
    Case three. Ms. M. is a 74-year-old female who is legally 
blind and has multiple medical issues. She has two daughters 
that live near her and offer support. In addition to her 
daughters' support, Ms. M. also receives care management, 
homemaking, home delivered meals again through the Connecticut 
Homecare Program for Elders. Another daughter is also in the 
area and is a suspected drug user, and sometimes stays with Ms. 
M. in her apartment. This daughter frequently asks Ms. M. for 
money, allegedly to help her move on in her life and get her 
own place to live. At times when Ms. M. refused to give her 
daughter money, the daughter would verbally abuse her. Ms. M. 
did call the police when her daughter yelled at her. However, 
no arrest was made.
    Several months later, Ms. M.'s care manager was notified 
that the daughter took her food stamp card and spent the 
balance of $312, which was her grocery money for the remainder 
of the month. She reported to the care manager that her 
daughter went into her purse and stole the card. Through 
encouragement by the care manager, Ms. M. did take action and 
called the police. A restraining order was issued against her 
daughter, and the daughter was required to pay the money.
    Case four. Mr. S. was admitted to the Connecticut Homecare 
Program, an 81-year-old widow with fairly advanced dementia. He 
was living alone in his home of 40 years. His daughter came up 
from the south to help with the program applications, as well 
as Medicaid applications. Mr. S. also had a son who was 
somewhat involved in his care.
    With the care manager's urging, Mr. S.'s daughter took Mr. 
S. for a geriatric assessment where he was diagnosed with 
fairly advanced Alzheimer's disease and recommended 24-hour 
supervision to be made. Conservatorship was also recommended, 
so his son and daughter became coconservators of the person and 
the estate through our probate courts.
    An old friend agreed to take care of him, and the daughter 
returned back to her home in the south. The friend was very 
controlling and was very resistant to accepting the programs, 
so we had some trouble getting the care plan implemented for 
this gentleman. She would often threaten us that if things 
didn't go her way, she would no longer care for him. The son 
was providing care when this friend was not able to or the 
formal services were not there. All of his personal care needs 
were being managed by the friend and his son.
    We continually tried to assess if the son was providing all 
of the care that he had assured us he was providing. An 
incident was discovered that Mr. S. was being left alone with a 
special lock on the door so that he would not wander. The 
friend/caregiver opened the mail one day and discovered that 
the son had opened up a number of credit cards in his name and 
was using them, and the bills were reflecting large overdue 
balances.
    All of this resulted in an Elderly Protective Services 
referral and multiple appearances in probate court. In the 
probate court, he was assigned a guardian ad litem to ensure 
that the 24-hour care was provided, and eventually an attorney 
was appointed as the conservator of the estate. The issues of 
financial exploitation and personal neglect concerns resulted 
in weekly probate appearances for accountability to the probate 
judge.
    Finally, Mr. S. was assigned a new conservator of the 
person that was not related, and it was felt that he was 
required to move to a skilled nursing facility. He subsequently 
passed away at the nursing facility.
    As you can see from this case, and like all the stories I 
have presented, they require intensive, timely intervention, 
and require a team of professionals in multidisciplines to 
safeguard the individuals, most critically individuals with 
cognitive impairment.
    The Agencies on Aging are just one resource in our larger 
network of professionals which I think Pam outlined, adult 
protective services, social workers, banks, the police, and the 
prosecutors, which are endeavoring to educate the public about, 
prevent, and intervene in situations of elder abuse. All of us 
are involved, and we're greatly heartened to see the major 
provisions of the Elder Justice Act passed as part of the 
Affordable Care Act.
    The Elder Justice Act is intended to facilitate the 
coordination among the stakeholders, establish uniform 
standards for response, and increase the public resources that 
are invested into the key public health and safety issues. We 
need all of it. To meaningfully respond, we need full 
implementation of the provisions of the act and enhanced 
staffing and resources for such vital partners and community 
programs.
    Education is also needed for our community law enforcement, 
banks, home- and community-based service providers on signs of 
abuse, the reporting requirements. And finally, we'd like to 
recommend that a national registry for all in-home providers 
with criminal histories related to elder abuse would serve as a 
helpful tool to both our community providers and those of us 
serving the elders in our community.
    We appreciate your attention to elder abuse. It needs and 
certainly is deserving of that population. Thank you for giving 
me this opportunity, and I'm glad to answer any questions you 
may have.
    [The prepared statement of Neysa Stallmann Guerino appears 
in the Appendix on page 63.]
    Senator Blumenthal. Thank you.
    Mr. Blancato.

STATEMENT OF BOB BLANCATO, NATIONAL COORDINATOR, ELDER JUSTICE 
                           COALITION

    Mr. Blancato. Thank you, Senator. Good morning again.
    Yes, we can do this. Here we go.
    Thank you for the opportunity to testify on behalf of the 
nonpartisan Elder Justice Coalition. Our now more than 750 
members appreciate the strong commitment this committee has to 
promoting elder justice by helping to prevent elder abuse. And 
I would also note that Ann Montgomery from the Senate Committee 
on Aging is here, and she has been a great champion at the 
staff level of this issue as well.
    You bring an additional level of credibility and experience 
to this issue because of your outstanding work as Attorney 
General of this state, and your efforts at combating elder 
abuse were very effective. But we commend you for your 
leadership on elder justice just in your first year in the 
Senate. Serving as a cosponsor of the End Abuse in Later Life 
bill, as well as the Elder Abuse Victims Act, and your request 
for a GAO study on ways the Federal Government can support 
state, local, and private efforts to combat financial 
exploitation is very important.
    We commend you not only for holding this hearing but for 
your interest in policy strengthening APS programs. We look 
forward to working further with you and your staff. In light of 
the fact that policy to strengthen APS programs could be 
included in the Older Americans Act, we are especially 
interested in working with you and members of the authorizing 
committee to see how this upcoming reauthorization of the Older 
Americans Act can further strengthen our commitment to elder 
abuse. And, in fact, this afternoon I'm going to be speaking at 
a listening session that they're holding down in the Senate 
HELP Committee on this very topic.
    One thing is not in dispute, and we've heard a lot about 
this this morning. Elder abuse is a growing national problem. 
When you factor in the nonreporting issue, and we've heard 
numbers already, there's a most recent New York study that says 
for every reported elder abuse, 23 or more cases go unreported. 
Elder abuse takes all forms, but financial abuse is the most 
prevalent in 44 of our states in this country. The average 
victim of elder abuse is an older woman living between 75 and 
80. But today, according to the Census Bureau, 48 percent of 
all women 75 and over now live alone.
    Yet our Federal response to this growing problem is 
anything but growing. If you consider funds spent on adult 
protective services from the Social Services Block Grant, and 
funds for elder abuse prevention and the ombudsman program in 
the Older Americans Act, it totals less than $200 million. By 
contrast, we spend upwards of $7 billion on child abuse 
prevention programs.
    We are all looking for ways to save Medicaid dollars in 
this $330 billion budget. Let us invest in preventing elder 
abuse and keeping some of its victims from having to turn to 
Medicaid. That's something for the super committee to think 
about, Senator, as you pointed out earlier. The investment in 
the Older Americans Act and elder abuse could do a lot of good.
    We most certainly appreciate your recognition of and 
support for adult protective services in our nation. An 
original member of our coalition and one of our most steadfast 
advocates is the National Adult Protective Services 
Association. APS is established by statute in every state to 
receive reports of abuse, neglect, and exploitation of older 
persons. The work of APS is as important to vulnerable adults 
as child protective services are to children. Yet, despite its 
nationwide status as a response system for victims of 
vulnerable adults and elder abuse, as you know from the most 
recent GAO report, it has no national infrastructure. As a 
result, APS offices are faced with ever-increasing caseloads, 
shrinking state budgets, and are struggling to survive.
    Yet we find it both amazing and appalling that there are 
still 13 states that provide no funding for APS from the Social 
Services Block Grants.
    An important missing dimension for APS is the lack of a 
dedicated Federal funding stream, but we are all very pleased, 
as we've heard today, that this was addressed with the passage 
last year of the Elder Justice Act. I know you are familiar 
with this landmark legislation. My only additional comment 
about the Elder Justice Act is our fervent hope that, with your 
help, we can secure first-time funding for the act as proposed 
by the President in his FY 2012 budget, as Secretary Greenlee 
mentioned. We have 15,000 postcards signed by people from 39 
states in our office supporting that very position.
    The main element in the President's request is $16.5 
million for adult protective service demonstration grants. We 
view this as an important first step in building a national 
infrastructure for APS services. There is no question that 
another way to enhance the standing of APS is to allow it to 
have a first-time home within the Federal Government. We 
believe this action will prove important if it prompts the 
administration to move even more quickly and implement the 
provision of the Elder Justice Act which calls for a permanent 
home within HHS for APS.
    We feel this office should collect and disseminate data on 
an annual basis, and do it in coordination with the Department 
of Justice. The absence of good data has impeded legislative 
action on elder justice, pure and simple. This needs to change, 
because in this environment, data can drive dollars.
    We also support the administration's call for a State Adult 
Protective Service Resource Center. We agree such a center is 
needed by the field and think it's important to have it 
codified in statute. We look forward to discussing with you the 
idea of having this APS resource center be an extension of the 
National Center on Elder Abuse. We await the announcement by 
AoA of their new national center, and following that we can see 
what possibilities may exist.
    Essentially, we see your support as a critical catalyst to 
aid adult protective services, the men and women who are on the 
front lines in each state to help investigate and help victims 
of elder abuse and prevent future victimization. It is time the 
perpetrators of elder abuse stopped having the upper hand.
    As Mr. Matatva so eloquently stated, we must never forget 
that a victim of elder abuse is never the same. And according 
to the statement of findings in the Elder Justice Act, victims 
of elder abuse have three times the risk of dying prematurely. 
What greater motivation do we have to act, and act now? Thank 
you very much.
    [The prepared statement of Bob Blancato appears in the 
Appendix on page 66.]
    Senator Blumenthal. Thank you.
    [Applause.]
    Thank you all. Thank you for your very powerful and 
important testimony.
    I have a number of questions. And again, I'm going to 
invite the audience to submit questions. And I want to thank 
each of you now, and I will reiterate it, for being, as Mr. 
Blancato characterized it, in the trenches, on the front lines, 
because you are truly dealing with this problem, as Secretary 
Greenlee is, at a higher level, in a different set of trenches, 
and Mr. Matatva has fought his own battles, and Ms. Timmermann. 
All of you who have been here before us today really are 
fighters in this effort.
    So let me just begin, Ms. Guerino, by asking you. You 
mentioned that there is no--Ms. Giannini mentioned that there 
is no APS program as is found in other states. Would that be 
helpful, do you think, in Connecticut to the work of your 
agency?
    Ms. Guerino. Certainly. We are targeted to individuals 60 
and older. So PSE does address that. But as we're opening up 
the long-term care doors and removing the silos and looking at 
long-term care for anyone over 18, we are learning and engaging 
with many more younger disabled individuals. But there is a 
huge gap in services for anyone under 65, really. Sixty to 65 
you're limited, but you're okay. But you get under 60 and it's 
particularly difficult. And as we are seeing early onset of 
some Alzheimer's type diseases, those caregivers are in 
extremely stressful situations and financially very difficult 
situations, and there's not a lot of help out there at all.
    Senator Blumenthal. And where do you see the biggest gap in 
coordination between yourself and the state or other agencies?
    Ms. Guerino. I think it's more so law enforcement and the 
local towns, the way that they handle the finding and how they 
get it to us, and then the expectations. I think education is 
needed because everyone expects the other person has the power 
to do that. And to things that have been said a number of times 
today, the self-determination right complicates all of this. We 
can't go in with a magic wand and say you have to remove all 
this clutter, and there's usually--it's a very complicated 
issue. But having a uniform response and a uniform methodology 
for all of us I think would be extremely helpful.
    Senator Blumenthal. So more coordination with law 
enforcement in determining who has what responsibility, is that 
what you mean?
    Ms. Guerino. Responsibility and what we do, who do we call 
first, who do we call second, what's available out there, 
what's our kind of menu of options available to us right now. I 
think it's hit or miss with the officer that you get, with the 
town that you receive. We cover 20 towns in our region. All of 
them are going to respond differently, and I'm sure Pam can 
actually answer that even more eloquently, whether they call 
PSE, whether they call the Area Agency on Aging, it's all 
different, or whether they call their local social worker in 
their town, if their town has that. It's really very different 
how all of them respond to the kind of case findings out there.
    Senator Blumenthal. Towns respond differently, and law 
enforcement agencies in those towns respond differently.
    Ms. Guerino. Absolutely.
    Senator Blumenthal. And how about the state? Do you go to 
the Chief State's Attorney's Office or state prosecutors?
    Ms. Guerino. We have utilized that appropriately.
    Senator Blumenthal. How do you decide whether you go to the 
state or to local prosecutors or to state's attorneys?
    Ms. Guerino. You're asking me a question I can't answer.
    Senator Blumenthal. That's fine.
    Ms. Guerino. So I'd have to talk to my staff in order to do 
that, but Pam probably can.
    Ms. Giannini. I can say this, Senator, that Neysa is 
correct in that the local response is different town by town, 
situation by situation. In some towns they have a detective 
that's designated to assist in any kinds of abuse cases, and in 
other towns it's the patrol officer, whoever that might be.
    When we work with law enforcement, we work with the 
prosecutor's office. Sometimes we call the Chief State's 
Attorney's Office to assist us in working with the prosecutor 
and getting them active on a case if we don't feel they're 
putting forth enough effort.
    But it's all dependent on the resources that are available 
in the town, in the Chief State's Attorney's Office even. We 
used to have an elder abuse unit in the Chief State's 
Attorney's Office. That no longer exists. Although they are 
still supportive of us, it's not as ultimately available as it 
has been in the past. So there are difficulties in that.
    Sometimes in towns, it's just that some officer has a very 
deep interest in this population, and we know to call Officer 
Jones because he has been very active on another case, and 
that's how protective services workers work. They find somebody 
that they can work with and they keep on going back to that 
source because it has been helpful and they find an interest in 
it.
    It's all about education. It's all about sharing that 
information, making sure officers are aware of the specific 
laws that pertain to people over the age of 60 as opposed to 
the younger population, and how to enforce those. And often we 
hear when we go into situations where it really is some 
criminal activity, the older person doesn't want to prosecute 
their family member, or the older person isn't a reliable 
witness according to a police officer. So you have to work all 
that kind of stuff together.
    Senator Blumenthal. I'm interested in your comment that 
Connecticut has no adult protective services, and therefore 
receives no money from the Federal Government for APS. Would it 
be helpful to redefine or recharacterize Federal programs so as 
to be eligible for that funding?
    Ms. Giannini. Well, I think that knowing the history since 
I've been around a long time, in Connecticut there hasn't been 
a great deal of support for adult protective services from the 
advocacy groups for persons with disabilities, and I think 
that's one of the reasons why we've never gone down that road 
in Connecticut. Is there a need? I would say, yes, there is. 
From what I've seen and from what I know about the severity of 
the cases we're getting on that younger population, there seems 
to be a need for that type of intervention. So some funding, 
national direction on that would be helpful.
    Senator Blumenthal. And also your point about--and it may 
be related--the emphasis--I'm going to paraphrase rather than 
quote--the emphasis on service rather than what you call 
culpability, which I interpret to mean law enforcement or 
prosecution, would it be helpful do you think for there to be 
more emphasis on the law enforcement or deterrence aspect?
    Because really you're dealing in your job with, in effect, 
providing remedies, providing care and intervention, all of you 
are really, and the deterrent aspect would be important for 
some of the scams that prey on seniors, whether they be home 
repair, which I saw commonly as Attorney General, or financial 
exploitation pitches that are often too good to be true, and 
are, but prey on seniors ranging from selling gold to selling 
stocks. The list goes on.
    So I'm wondering whether more emphasis on culpability and 
prosecution would be worthwhile.
    Ms. Giannini. As I said, our model here in Connecticut is 
more of a social service model. But the emphasis on culpability 
at the same time while helping the person to live in the 
community I think would raise the bar a little bit in the 
deterrent area. But that would depend on the support that we 
were able to get from law enforcement and the prosecution end 
of it.
    Gathering the evidence, looking for the evidence, staff 
needs a lot of training in that area and has to be supported 
with law enforcement because we do not have that model here in 
Connecticut.
    Senator Blumenthal. Mr. Blancato, what do you think about 
that issue both here in Connecticut and really nationwide? 
You've been fighting this battle for most of your career, and 
fighting with extraordinary diligence and dedication. So 
perhaps you have a perspective.
    Mr. Blancato. Thank you, Senator. I think it's really about 
the Federal Government playing catch-up and utilizing the 
resources that should be applied in a coordinated way to 
fighting elder abuse. I mean, one of the things that we found 
fascinating that was written into the Elder Justice Act was the 
creation of a coordinating council which would take all the 
entities in the Federal Government that have some work in 
dealing with elder abuse, some of which we know and probably 
some of which we don't know, to mandate they come together and 
come up with a strategy inside the Federal Government as to how 
to address this, and through that process we might find some 
additional funding streams that we didn't even know could be 
helpful in this regard.
    So I think that we've got to--on the law enforcement side, 
it's regrettable that the Elder Justice Act split apart. At one 
point it was one comprehensive bill that included what is now 
the Elder Abuse Victims Act. That's got to get finished. That's 
as critical a bill as the main Elder Justice Act because of its 
emphasis on law enforcement, to give the ability to local 
communities to take models like they have in San Diego and in 
New York and in Spokane, Washington, where they have dedicated 
prosecutors doing elder abuse cases and doing phenomenal work 
not only in their community, but they've become national 
spokespeople for how to do prosecutions correctly.
    We need to better train law enforcement, because you can't 
stop what you don't report, and that's really the whole key 
with elder abuse. And law enforcement needs a better 
understanding of it so they can help assist in the detection 
and avoidance.
    So I'm for anything that's going to bring a wider array of 
resources to the table.
    Senator Blumenthal. Let me use that excellent comment to 
segue into some of the audience questions, and I have many more 
questions for all of you. But I have the great luxury of being 
able to talk to you personally, and I hope we will continue to 
work together because I'm really going to be focusing on this 
issue in the work that I do in the Senate, and I know you have 
spent your careers literally working on this issue.
    So the first question which really deals with exactly the 
point that you just raised comes from Senator Prague, who says 
that the State of Connecticut had a senior abuse unit in the 
office of the Chief State's Attorney. Because of budget 
constraints, the unit was closed. And can the Federal funding 
to deal with elder abuse be used to reinstate this unit?
    Mr. Blancato. Well, the funding that's out there, the Elder 
Justice Act funding, probably could to some degree. But I think 
the focus with Elder Justice money is the dedicated funding 
stream for adult protective services, the additional support 
for the long-term care ombudsman program, the creation of grant 
programs for things like forensic centers so we can do a better 
job of helping to detect elder abuse. So I think it may be a 
stretch to think the Elder Justice Act could do it, but there 
may be some other--and the Elder Abuse Victims Act, I suspect 
that could be an avenue for support.
    But I think the problem that troubles me, and I guess a lot 
of the advocates for elder justice, and this is something that 
we're all going to confront come the fall, if you go through a 
whole fiscal year like last year, in FY 2011, with all the cuts 
that were made, not a single new program was funded last year 
by the Federal Government in fiscal year 2011. The Elder 
Justice Act is a new program. What is going to happen to new 
programs in this environment? Are they going to have a chance? 
And if so, how are you going to make that case?
    I mean, I think we can make the case, but there's got to be 
a feeling that new money can still become available in a new 
program, and I think we have a great test model here to show 
where, if you invest properly, you can save the big-ticket 
programs like your Medicare and Medicaid dollars if you're 
allowing people to remain home and getting services at home, 
preventing elder abuse. So I think that's where we have to 
spend some time focusing and recognize that new programs do 
deserve to get funded even in this environment.
    Senator Blumenthal. And a question also I believe from 
Senator Prague to Ms. Giannini. Is it a requirement that social 
workers who work in the protective services program have any 
educational training in geriatrics so that they are sensitive 
to elderly issues?
    Ms. Giannini. When we hire social workers for protective 
services or any of our social work programs, we in the last 
five years or so have been looking toward hiring people based 
on their experience and training. Most are Master's level 
social work people that we are hiring with either a background 
or are in the process of getting their Master's in social work. 
And if they're to work with these various populations, not only 
do they come with training already that we are looking for, but 
we also provide on-the-job training that provides sensitivity 
education towards those that are older and those with 
disabilities.
    Senator Blumenthal. Thank you. I am going to try to ask as 
many of these questions as I can, and I'm going to ask them 
verbatim without editing them as best I can read them.
    The next question is from Helen Campbell of Colbrook. How 
much investigation has there been into abuse in long-term care 
facilities? What percentage are seniors that are involved in 
putting together programs and legislation?
    Ms. Giannini. Sounds like a two-part question to me. But 
our social work staff does investigate cases of abuse in long-
term care facilities, but we work very closely with the 
Department of Public Health on cases where the abuse is 
internal to the facility. We also work with the long-term care 
ombudsman program in the identification of these cases.
    There was a second part to that that I missed, something 
about the percentage of--I'm not really sure what the--could 
you read the last part of that?
    Senator Blumenthal. I'll read it again.
    Ms. Giannini. Yes. Thank you.
    Senator Blumenthal. What percentage are seniors that are 
involved in putting together programs and legislation? I think 
the question----
    Ms. Giannini. Oh, how----
    Senator Blumenthal [continuing]. Really is how involved are 
seniors?
    Ms. Giannini. What percentage, how involved are seniors in 
the development of programming? Well, we work with AARP on 
certain things. We work with the Area Agencies on Aging in the 
development of their regional plans where they do assessments 
as to the needs of older people, and that's how at the State 
Unit on Aging we do a three- to four-year planning document 
that pulls in information through focus groups that we hold 
around the state, and we build upon the regional plans that the 
area agencies do at the local level as well.
    Senator Blumenthal. This next question is from Nancy 
Shaffer, the state ombudsman, and concerns the reasons for 
under- or nonreporting, essentially the fear of retaliation 
based on the experience of the ombudsman and the efforts made 
to alleviate that fear. Maybe you could comment on the fear of 
retaliation as a reason for non-reporting and other reasons 
that there is under- or nonreporting. And that's a question I 
would pose to all of you.
    Ms. Giannini. I'll start and let my colleagues add. I think 
that the fear of retaliation is very strong in all 
environments, whether it be in a long-term care facility, 
assisted living, or in the community.
    I know for a fact, I remember when my father was in 
assisted living here in Connecticut I remember him complaining 
about them not delivering his medications on time. And I said, 
well, dad, we need to talk to them and let them know about this 
situation so that you can get your medications when you need 
it. And he turned to me and said, oh no, don't do that, I don't 
want to, they'll do something else if I complain about it. And 
this was a gentleman who was well educated, knew what he was 
doing, but he knew that because of his disabling condition, he 
knew he was in need of services and did not want to upset the 
apple cart.
    So I would say that retaliation, fear of retaliation is a 
component of why people don't report, along with issues of 
they're ashamed, along with issues that they don't want to get 
their family members in trouble and they want to stay in the 
environment that they're in and they have fear that they would 
have to go either into a nursing home or a different location 
in order to live.
    Ms. Guerino. I think the dependency that many older adults 
feel, that they need someone else to care for them or to 
provide some portion of their care, is just crippling to them. 
And to potentially--you know, what they say is if I report 
that, I potentially won't have anyone to care for me; or better 
the devil I know than the devil I don't know.
    And so to change that, as Pam pointed out, to either move 
to another location, whether it be a nursing facility or 
another location, it's just too much for them to really--they 
believe it's not as bad, and I think like all of us do. We 
convince ourselves it's not that bad. We want something to be 
real. We keep saying it's not that bad, it could be worse. I'm 
very lucky my daughter comes every day.
    And so the retaliation is what does create those kinds of 
things, and the fear of having no one to care for them. I can't 
underestimate the power of that for older adults seeking a 
remedy to it. It's just too scary. The options are just too 
scary, and they don't know about a lot of options that are out 
there, and they're still a very proud group, and to allow any 
semblance of not the perfect family. It's still just not 
acceptable in our communities, particularly in the smaller 
communities.
    This is a doctor who served the entire town for years. 
Nobody is going to say anything. No one is going to believe me 
kind of thing.
    Senator Blumenthal. Mr. Blancato.
    Mr. Blancato. I would concur with all of their statements, 
and I also have to interject an apology, Senator, that the 
Assistant Secretary and I both have a plane to get back to 
Washington because we're involved in that Senate HELP thing 
this afternoon. But any questions that have arisen that are 
directed to me I'm more than happy to respond to for the record 
later, working with Rachel and whatever.
    But I think it's a great service you did by having this 
hearing, and your involvement and interest I think is going to 
aid the cause tremendously, and we thank you for the 
opportunity to be here today and join you.
    Senator Blumenthal. I have been in your situation before 
serving as a Senator, testifying down in Washington and having 
to catch a plane in the other direction. So I am more than 
sympathetic and enormously grateful to both you and the 
Assistant Secretary, and you're excused with thanks.
    Mr. Blancato. A pleasure. Thank you very much.
    Senator Blumenthal. We have a couple of more questions, and 
we're near the end of our hearing in any event. So I'm going to 
ask a few more questions.
    Thank you very much, Assistant Secretary Greenlee, for 
being here and for staying as long as you did. And thank you, 
Mr. Blancato.
    I want to ask a question that's been submitted by Laurie 
Julian of the Alzheimer's Association, the Connecticut chapter, 
which refers to the GAO report on guardianships, cases of 
financial exploitation, neglect and abuse of seniors, fraud 
that results from poor communication between state courts and 
Federal agencies that may allow guardians to continue abusing 
their victims, and many of the patients in the study involved 
individuals with dementia. What oversight and vetting of 
guardians can be done? Difficult question, but important.
    Ms. Giannini. This question may be bigger than me. So I 
think that in Connecticut, where we have a conservatorship 
program, and we do have guardians for persons with 
developmental disabilities, but under conservatorship program, 
it's the probate court's responsibility to vet the conservators 
to make sure that they are providing the duties and the care 
that they're supposed to be providing. And if someone is having 
a problem or knows of a conservator that is not appropriately 
caring for their assigned ward, then they have to request a 
status hearing in the probate court, and the probate court has 
been very, very responsive in keeping on top of this. And I 
think that, in Connecticut, the system is fairly good.
    I, you know--we rarely--we have heard of some instances 
where conservators have been problematic, and if it's brought 
to the attention of the probate court, they answer and they 
work with that, and that's basically how we handle it here in 
Connecticut.
    Senator Blumenthal. Did you have a comment, Ms. Guerino?
    Ms. Guerino. The only comment is to probably agree. There 
are issues with conservators in their capacity to serve in that 
role, and some take it, unfortunately, too lightly, their 
responsibility. Or again, the separation of personal choices, 
that the individual that's conserved may still be able to make 
and the conservator's responsibility, and we see clashes there 
sometimes, or just no response because there's no agreement of 
things. So decisions are made sometimes that are not either in 
the best interests of the individual or leads to a potential 
neglectful abuse situation. We have had conservators that we 
have contacted that many months, if not years have gone by. 
They have never seen the individual in person.
    So the issue is there. Despite some good systems that we 
have, the issue is there, and it just happens. Conservators 
appointed don't know all the people that they're conserving.
    Senator Blumenthal. I think you've answered the last 
question, or at least addressed it partially, which comes from 
Nancy in Torrington. Probate court rulings are not always in 
keeping with the APS' service provider's recommendations, 
resulting in the progress made with the elder to be negated by 
the court ruling. It is frustrating. So you may have addressed 
that question.
    Ms. Guerino. Yes.
    Senator Blumenthal. I want to thank you. I'm not going to 
give a detailed closing statement because we really are 
involved very much in a work in progress. So I don't think I 
can conclude this hearing. I think the hearing will go on, and 
the work that we do together.
    Clearly, we need to raise awareness and attention. That's 
been a theme here, as has been the need for more funding. I 
can't promise as a single United States Senator, a freshman who 
is, by the way, 97th in seniority, that I can address that 
issue single-handedly, but I know that we have a coalition and 
a group of Senators led by Senator Kohl who have a very high 
degree of commitment and dedication to this issue.
    I hope that we can make progress on data collection. A 
theme here has been the need for more information, as well as a 
resource center, a home for adult protective services, better 
cooperation between the Federal Government and the State of 
Connecticut, which is, after all, my priority. The State of 
Connecticut is first and foremost what interests me, and I am 
absolutely committed to working with you, the State, private 
agencies, others who have been here today, and maybe most 
important, the victims who are represented here, continuing to 
fight for them, whether it's Mr. Matatva or Ms. McCone or Mr. 
Harkness. I hope he is listening from his home. Each of them 
have stories that are riveting and profoundly significant and 
more persuasive and powerful than anything that I can say here, 
really anything that any of our witnesses can say.
    And I want to thank you for putting a face and voice on 
some of your clients, but more importantly the folks who are 
here today to lend their support.
    I believe that there needs to be more done by the Federal 
Government, an Office of Elder Justice in the United States 
Department of Justice; more reporting, whether it's mandatory, 
not unfunded mandates for sure, but mandatory reporting that 
enables the flow of information to go to you; more training and 
education of the prosecutors so they can do a better job. I 
realize that consultation with them is often a serendipitous 
process depending on who is the most interested and who will 
take your cases.
    And raising that awareness I think also may require 
stronger penalties. I believe strongly mandatory penalties may 
be appropriate, but certainly enhanced penalties, just as we've 
done through the Adam Walsh Act for child abuse, which will in 
turn raise the level of interest on the part of our state and 
Federal prosecutors. The State of Connecticut has led the way 
on this issue by enhancing penalties, and the Federal 
Government can do much the same.
    So that is a kind of preview of what I see as the agenda 
before us. I want to thank all of you for being with us today. 
It's been for me a very informative and productive session. I 
realize that for you, for the advocates and professionals who 
work in this area, you've heard some of it before, maybe more 
than you would like about the shortcomings and the gaps, but I 
think making a record for the United States Senate has served a 
profoundly important service, and I thank all of you for being 
a part of this proceeding.
    And so for the Committee on Aging, this committee is 
adjourned. The record will remain open in case anyone would 
like to submit anything in writing--this is standard procedure 
for a Senate committee--for the next 10 days.
    [Whereupon, at 12:20 p.m., the hearing was adjourned.]

                                APPENDIX

[GRAPHIC] [TIFF OMITTED] T0551.001

[GRAPHIC] [TIFF OMITTED] T0551.002

[GRAPHIC] [TIFF OMITTED] T0551.003

[GRAPHIC] [TIFF OMITTED] T0551.004

[GRAPHIC] [TIFF OMITTED] T0551.005

[GRAPHIC] [TIFF OMITTED] T0551.006

[GRAPHIC] [TIFF OMITTED] T0551.007

[GRAPHIC] [TIFF OMITTED] T0551.008

[GRAPHIC] [TIFF OMITTED] T0551.009

[GRAPHIC] [TIFF OMITTED] T0551.010

[GRAPHIC] [TIFF OMITTED] T0551.011

[GRAPHIC] [TIFF OMITTED] T0551.012

[GRAPHIC] [TIFF OMITTED] T0551.013

[GRAPHIC] [TIFF OMITTED] T0551.014

[GRAPHIC] [TIFF OMITTED] T0551.015

[GRAPHIC] [TIFF OMITTED] T0551.016

[GRAPHIC] [TIFF OMITTED] T0551.017

[GRAPHIC] [TIFF OMITTED] T0551.018

[GRAPHIC] [TIFF OMITTED] T0551.019

[GRAPHIC] [TIFF OMITTED] T0551.020

[GRAPHIC] [TIFF OMITTED] T0551.021

[GRAPHIC] [TIFF OMITTED] T0551.022

[GRAPHIC] [TIFF OMITTED] T0551.023

[GRAPHIC] [TIFF OMITTED] T0551.024

[GRAPHIC] [TIFF OMITTED] T0551.025

[GRAPHIC] [TIFF OMITTED] T0551.026

[GRAPHIC] [TIFF OMITTED] T0551.027

[GRAPHIC] [TIFF OMITTED] T0551.028

[GRAPHIC] [TIFF OMITTED] T0551.029

[GRAPHIC] [TIFF OMITTED] T0551.030

[GRAPHIC] [TIFF OMITTED] T0551.031

[GRAPHIC] [TIFF OMITTED] T0551.032

[GRAPHIC] [TIFF OMITTED] T0551.033

[GRAPHIC] [TIFF OMITTED] T0551.034

[GRAPHIC] [TIFF OMITTED] T0551.035

[GRAPHIC] [TIFF OMITTED] T0551.036

[GRAPHIC] [TIFF OMITTED] T0551.037

[GRAPHIC] [TIFF OMITTED] T0551.038

[GRAPHIC] [TIFF OMITTED] T0551.039

[GRAPHIC] [TIFF OMITTED] T0551.040

[GRAPHIC] [TIFF OMITTED] T0551.041

[GRAPHIC] [TIFF OMITTED] T0551.042

  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
